<html>
<title> - PENDING PUBLIC LANDS, FORESTS, AND MINING LEGISLATION</title>
<body><pre>[Senate Hearing 114-400]
[From the U.S. Government Publishing Office]














                                                          S Hrg 114-400

         PENDING PUBLIC LANDS, FORESTS, AND MINING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON PUBLIC LANDS, FORESTS AND MINING

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                     

                                 S. 132
 
                                 S. 326
 
                                 S. 1691
                                    
                               __________

                             JULY 16, 2015



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                       Printed for the use of the
               Committee on Energy and Natural Resources

           Available via the World Wide Web: http://fdsysgov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-906                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, Jr., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

           Subcommittee on Public Lands, Forests, and Mining

                        JOHN BARRASSO, Chairman
SHELLEY MOORE CAPITO                 RON WYDEN
JAMES E. RISCH                       DEBBIE STABENOW
MIKE LEE                             AL FRANKEN
STEVE DAINES                         JOE MANCHIN III
BILL CASSIDY                         MARTIN HEINRICH
CORY GARDNER                         MAZIE K. HIRONO
JOHN HOEVEN                          ELIZABETH WARREN
JEFF FLAKE
LAMAR ALEXANDER
                    Karen K. Billups, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel and Natural Resources Policy Director
            Angela Becker-Dippman, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Barrasso, Hon. John, Subcommittee Chairman and a U.S. Senator 
  from Wyoming...................................................     1
Wyden, Hon. Ron, Subcommittee Ranking Member and a U.S. Senator 
  from Oregon....................................................     5

                                WITNESS

Tidwell, Chief Thomas, U.S. Forest Service, U.S. Department of 
  Agriculture....................................................     8
Ellis, Steven, Deputy Director for Operations, Bureau of Land 
  Management, U.S. Department of the Interior....................    24
Matz, Mike, Director, U.S. Public Lands, The Pew Charitable 
  Trusts.........................................................    37
Neiman, Jim, Vice President and CEO, Neiman Enterprises, Inc.....    45
Swanson, Steve, President & CEO, Swanson Group, Inc..............    54

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Association of O & C Counties:
    Letter for the Record........................................   283
Barrasso, Hon. John:
    Opening Statement............................................     1
Bear, Dinah:
    Statement for the Record.....................................   287
Board of Commissioners for Tillamook County, Oregon:
    Letter for the Record........................................   285
Ellis, Steven:
    Opening Statement............................................    24
    Written Testimony............................................    26
    Responses to Questions for the Record........................   271
Flake, Hon. Jeff:
    Statement for the Record.....................................     4
Matz, Mike:
    Opening Statement............................................    37
    Written Testimony............................................    39
    Responses to Questions for the Record........................   276
Mealey, Stephen:
    Statement for the Record.....................................   293
National Association of State Foresters:
    Letter for the Record........................................   297
(The) National Wild Turkey Federation:
    Statement for the Record.....................................   299
Neiman, Jim:
    Opening Statement............................................    45
    Written Testimony............................................    47
    Responses to Questions for the Record........................   278
(The) Public Lands Council and the National Cattlemen's Beef 
  Association:
    Letter for the Record........................................   307
S. 132, the Oregon and California Land Grant Act of 2015.........    73
S. 326, the Stewardship End Result Contracting Improvement Act...   230
S. 1691, the National Forest Ecosystem Improvement Act of 2015...   235
Swanson, Steve:
    Opening Statement............................................    54
    Written Testimony............................................    56
    Responses to Questions for the Record........................   280
Tidwell, Chief Thomas:
    Opening Statement............................................     8
    Written Testimony............................................    10
    Responses to Questions for the Record........................   259
U.S. Department of Agriculture, Forest Service:
    Letter for the Record........................................   308
U.S. Department of the Interior, Bureau of Land Management:
    Letter for the Record........................................   309
(The) Wilderness Society:
    Letter for the Record........................................   310
Wyden, Hon. Ron:
    Opening Statement............................................     5

----------
The text for each of the bills which were addressed in this hearing can 
be found on the committee's website at: https://www.energy.senate.gov/
public/index.cfm/hearings-and-business-meetings?ID=B054D01C-6EDB-4662-
B224-808F4F932A66

 
         PENDING PUBLIC LANDS, FORESTS, AND MINING LEGISLATION

                              ----------                              


                        Thursday, July 16, 2015

                                       U.S. Senate,
          Subcommittee on Public Lands, Forests and Mining,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 pm in 
Room SD-366, Dirksen Senate Office Building, Hon. John 
Barrasso, Chairman of the Subcommittee, presiding.

   OPENING STATEMENT OF HON JOHN BARRASSO, U.S. SENATOR FROM 
                            WYOMING

    Senator Barrasso. The Subcommittee will come to order.
    The purpose of today's hearing is to receive testimony on 
three bills all on the important topic of forest management.
    For decades our national forests and our rural and forested 
communities had a mutually beneficial relationship, largely 
focused on timber production. It created good paying jobs to 
support families. It reduced wildfire fuel loads and created 
wildlife habitat. It generated income that could be shared with 
communities to provide such essential services as roads, 
schools and law enforcement.
    This all began to change in the late 1980s and 1990s. 
Across the United States timber harvests from Federal forested 
lands fell by more than eight billion board feet, a decline of 
more than 80 percent. This abrupt drop in production levels was 
the result of numerous constraints on harvesting timber, 
including timber sales litigation and the listing of threatened 
and endangered species.
    Mills shuttered their operations and timber processing 
capacity in Wyoming and in other Western states was lost. Our 
once vibrant rural and forested communities were no more. 
Populations declined, schools closed and double digit 
unemployment became the new normal. The few mills that were 
able to survive continue to struggle to keep going given the 
uncertainty of supply.
    I would like to welcome Jim Neiman, one of these mill 
owners, headquartered in Hulett, Wyoming, to the Committee.
    We now have rural and forested communities across the West 
dependent upon Federal subsidies like Secure Rural Schools to 
provide basic services. Secure Rural Schools subsidies are not 
sustainable nor are they the long-term solution that rural 
counties need.
    Reducing timber production also negatively impacted the 
health of our forests. The lack of active forest management 
coupled with a policy of fire exclusion created the perfect 
storm for catastrophic, unnatural wildfire. According to the 
Forest Service between 62 and 82 million acres are in need of 
treatment and at risk of catastrophic wildfire. That is over 40 
percent of the entire national forest system and the number is 
growing.
    I am not suggesting we turn back the clock to the so-called 
timber heydays. That is not realistic, but we cannot allow the 
status quo to continue. Congress must act for the health of our 
forests and for the survival of our communities. A number of 
actions are necessary.
    We hear most often about the escalating costs of wildfire 
suppression and how year after year the agencies are forced to 
tap existing non-fire accounts. Congress must end the practice 
of fire borrowing. We cannot continue borrowing money to fight 
fires from the very accounts that help reduce the risk and the 
cost of wildfire. Instead, Congress must responsibly budget for 
wildfire management without resorting to budget gimmicks. The 
Senate Interior Appropriations bill provides a fiscally 
responsible approach that ends fire borrowing. I commend 
Senator Murkowski for advancing a reasonable solution on this 
difficult issue.
    To be clear, our forest management problem is not simply a 
fire budgeting or money problem. It is a prioritization 
problem. Right now I see no higher priority for the Forest 
Service than treating our forests to make them healthy again. 
Treating our forests is the best medicine we have to reduce 
fire risk, to bring down the cost of fighting fire over time 
and to continue to provide recreation, clean water and quality 
habitat for wildlife. It is the only sustainable way to provide 
the jobs and economic activity our rural and forested 
communities desperately need.
    My bill, S. 1691, makes treating our forests the priority 
it needs to be. Congress must help the Forest Service get 
treatments implemented at the same pace and scale fire and 
other disturbances are occurring.
    A 2007 Forest Service NEPA Feasibility Analysis determined 
that the best estimated average for environmental review cost 
was $365 million a year. In addition to the excess costs, these 
environmental reviews take far too long to complete, if they 
are completed at all. The Forest Service estimates that, on 
average, it takes over three years to prepare an environmental 
impact statement and nearly two years to prepare an 
environmental assessment.
    Given the crisis situation in our forests this is wasted 
time, wasted taxpayer money and wasted staff hours that we 
cannot afford to spare. Excessive environmental analyses are 
only a lightning strike away from hurting, not helping, our 
national forests.
    My bill would restore rationality to the NEPA process 
without eliminating environmental reviews or public 
involvement. It also provides categorical exclusions for 
certain types of needed forest projects to get them implemented 
more quickly.
    To further address the ever present threat of litigation, 
the bill offers arbitration as an alternative dispute 
resolution tool. The use of arbitration by the Secretary would 
be totally discretionary and limited in scope.
    S. 1691 would also deter extraneous lawsuits by requiring a 
bond to be posted covering the cost of the Forest Service to 
defend the lawsuit. This may seem harsh to some, but it has 
existed on tribal lands without incident.
    I am hopeful we can work together, this Committee and this 
Administration, to enhance the legislation and end the status 
quo. The very health of our forests, our watersheds, our 
wildlife and our communities depend on it.
    I also want to briefly touch on the other bills we have on 
the agenda.
    S. 132 is Senator Wyden's Oregon and California Lands bill. 
I know that resolving the challenges associated with the 
management of the O and C lands is something that Senator Wyden 
is very committed to.
    I do have some concerns with the bill as drafted. My 
concern is that it locks up nearly a million acres in various 
land conservation designations including wilderness, and I also 
understand it lacks the support from the local communities. I 
do want to work with Senator Wyden on O and C, and I am hopeful 
we can get there.
    We also have S. 326, Senator Flake's Stewardship End Result 
Contracting Act. This Committee, in the 113th Congress, 
reported out S. 1300 which reauthorized and made improvements 
to the Stewardship Contracting Authority. The 2014 Farm bill 
included many of the provisions of S. 1300 but did not 
incorporate the cancellation ceiling modifications. Senator 
Flake's bill would address that issue. It is a bipartisan bill, 
and I am glad that we could include it in the hearing today. 
Senator Flake is chairing a hearing in the Foreign Relations 
Committee at this time and is unable to attend the hearing, so 
I ask unanimous consent that his statement be entered into the 
record.
    With no objection, it is so ordered.
    [The information referred to follows:]
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    Senator Barrasso. With that, I want to thank our witnesses 
for being here, and turn to Senator Wyden for his opening 
remarks.

     STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden Thank you very much, Mr. Chairman. I very 
much appreciate your holding the hearing, your typical courtesy 
with respect to Oregonians.
    We have two witnesses here. I guess they are the Steves, 
Steve Ellis and Steve Swanson. Mr. Swanson, his mill burned 
down. He is rebuilding. It seems to me it is almost a microcosm 
of the challenge: rebuilding a mill, providing good paying jobs 
in rural areas in a tough, global economy. So we are really 
glad to have both the Steves. Steve Swanson, I think, 
personifies part of the picture that we are going to hear more 
about in the days ahead about how tough it is to compete in 
this tough, global economy.
    Two quick comments with respect to issues that Chairman 
Barrasso touched on.
    First, we authored the Safety Net Program in this room. 
This room saw that enacted in 2000. My own view is, and we have 
asked in the past for agencies to give us numbers to this 
effect, that the challenge in the days ahead is going to 
require both of these programs. There is no conceivable 
strategy and the Chief is here and he is nodding. Let the 
record show that the Chief started to nod. [Laughter.]
    Senator Wyden.There is no conceivable strategy where you 
get the harvest up so high that there is no need for a safety 
net, so my hope is that we can increase the harvest in a 
sustainable manner and also continue a program that began in 
this room in a bipartisan way. That is the Safety Net program. 
I just look at the numbers, and I do not see how we are going 
to be able to meet the needs of rural communities without both. 
That is point number one.
    Point number two, picking up on something you and I have 
talked about, Mr. Chairman, increasing the harvest in a 
sustainable way is a hugely important forest health issue. Gosh 
do we need this right now, because we are looking at the 
prospect all over this country of a devastating fire season. It 
is incredibly dry. It gets hot. You have a lightning strike in 
our part of the world, and all of a sudden you have an inferno 
on your hands. It has produced a lot of other things like fire 
borrowing which Senator Crapo and I with 250 organizations are 
trying to stop. I am very much looking forward to this kind of 
discussion both as it relates to increasing harvest while we 
also have the safety net and the forest health issue.
    A few comments with respect to the O and C land which, of 
course, is overseen by the Bureau of Land Management.
    My constituents want a balanced solution, and they think it 
is urgent. As of today there is only one bill out there, one 
bill, on this subject, and that is the bill that we are going 
to be discussing today.
    The bill applies updated forest management practices to 
about 2.8 million acres of truly unique O and C lands in my 
state. They have a story rich in history going back to the turn 
of the last century with a highlight being the 1937 O and C Act 
which puts together, what we consider to be, sort of, a 
checkerboard of public lands mixed in with private lands across 
18 Oregon counties. The lands are now managed under the 1994 
Northwest Forest Plan. Obviously the landscape has changed 
plenty in the last 20 years, but over the last 20 years we 
still have some of the same concerns. We are still concerned 
about the harvest; we are still concerned about watershed 
health, wildlife habitat, wildfire prevention; and, our mills 
and the counties that host O and C lands are waiting for 
Federal, land-based logs and the revenue they generate.
    This legislation we are going to discuss today, in my view, 
is going to jump start local economies, create certainty for 
mill owners in rural communities and lock in protections for 
some of Oregon's most treasured protections that almost every 
resident I see would like to protect. The legislation was 
originally introduced in 2013 after working with people from 
the timber industry, environmental leaders, scientists, and 
others. So it is, at least in my view, a place to begin to try 
to find common ground, identify the problems and find balanced 
solutions.
    The bill protects 1.6 million acres as conservation 
emphasis areas as well as safeguards old growth trees and 
riparian protections. At the same time it designates about 1.2 
million acres as forestry emphasis areas which will lead to a 
sustainable harvest of approximately 400 million board feet of 
timber a year for 50 years. We have worked with the Forest 
Service and the BLM on it, so we would like them to testify on 
that point today.
    Over the past two years we have gotten a lot of feedback 
dealing with an issue like this. There are folks on the 
environmental side who say it cuts too much, and the people in 
the logging industry who say it doesn't cut enough.
    My own view of tough natural resources issues, and the 
Chairman knows we've dealt with a lot of them in this room, is 
that in a tough contentious debate about natural resources 
nobody gets what they want. Nobody gets what they believe they 
ought to have. The question is can they get enough to 
essentially meet their needs? That is what we have sought to do 
in this legislation that we are considering today.
    Unlike other forestry proposals, my approach would not only 
double the harvest compared to the average harvest over the 
last decade: it protects lands for conservation and bedrock 
environmental laws such as the Endangered Species Act. The best 
forestry scientists in the Northwest, Jerry Franklin and Norman 
Johnson, who know the woods about as well as anybody on the 
planet, have given us invaluable counsel on it.
    We understand that it is not going to be unanimous when you 
take a vote on something like this, so we are continuing to 
have discussions with all concerned: forest products officials, 
conservation groups, local governmental leaders and 
recreational interests. Ideological extremes are not going to 
get the rural West and rural Oregon to a solution.
    Without compromise our forests are going to continue to 
remain locked up due to lawsuit, after lawsuit, after lawsuit. 
Management will be stalled, and the health of forests will 
continue to diminish. So my take on the bill we are going to 
discuss today is that it is a true compromise. A compromise 
that can save jobs and create more. A compromise that gets you 
a reliable harvest. A compromise that gets you 87,000 acres of 
wilderness and provides the first ever legislative protections 
for old growth, O and C old growth, and O and C streams.
    It also provides an opportunity to manage the forests 
sustainably and responsibly so we can enjoy them for 
generations. As the Chairman correctly said, my state and the 
rural West is not going to go back to the days of billion board 
foot clear cuts. The country does not want that. Rural 
communities do not want it.
    It is time to take the management of forests out of the 
courtroom and put it back into the hands of forestry and 
conservation professionals. We are going to rely on the best 
available science. We want a bipartisan approach. We want a 
collaborative approach. The legislation we will discuss today 
starts us down the path.
    Mr. Chairman, if I can just begin the apology-arama, the 
key plane to get to Oregon where I have to be in the rural part 
of the state to discuss what we are going to do about fire 
borrowing and the issues we are going to be talking about today 
leaves not too long from the time our friends have finished 
testifying, so I want to apologize in advance about the bad 
manners.
    Westerners always know more about plane schedules. I am 
looking at Senator Heinrich and my colleague from Montana, why 
we know more about plane schedules than anybody around is 
simply because of the challenge of getting home, for example, 
at rural town meetings in Lake View and places like that, 
Steve. So I want to apologize to our guests for bad manners.
    We are going to work very closely with you. The Chairman 
wants to work on this issue intensively, and I think that is 
very constructive. I look forward to doing it.
    Thank you, Mr. Chairman.
    Senator Barrasso. Well, thank you.
    Just following up on your comments, Senator Wyden, and 
those of us from the West try to get home just about every 
weekend and I know we are going to try to do it again this 
weekend. It is close. It is Frontier Days in Cheyenne, so I am 
looking forward to the Daddy of them all.
    With that we have people here to testify, witnesses. Mr. 
Thomas Tidwell, Chief of the U.S. Forest Service; Mr. Steve 
Ellis, Deputy Director of Operations for the Bureau of Land 
Management; Mr. Mike Matz, the Director of Public Lands for the 
Pew Charitable Trust; Mr. Jim Neiman, Vice President and CEO of 
Neiman Enterprises; and Mr. Steve Swanson, President and CEO 
for the Swanson Group.
    At the end of the witness testimony we will begin 
questions. Your full written testimony will be made part of the 
official record, so please try to keep your statements to five 
minutes so that we may have time for questions.
    We look forward to hearing your testimony beginning with 
Chief Tidwell.

 STATEMENT OF THOMAS TIDWELL, CHIEF, U.S. FOREST SERVICE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Mr. Tidwell. Chairman Barrasso, Ranking Member Wyden, 
members of the Subcommittee, thank you for the opportunity to 
testify on these three bills today.
    I'll start with Senate bill 1691. We welcome legislation 
that provides incentives for collaboration and expands our tool 
set to be able to restore and maintain ecological resiliency of 
our fires, but without eroding the public trust that we have 
been able to build over the years, those along with the 
assurance that's provided by environmental laws.
    With this legislation as written, we oppose this bill 
primarily because of concerns with the bonding requirement, the 
mandated acreage targets and the design and scale of the 
categorical exclusions.
    The bonding requirement is problematic, you know, and I'm 
not sure that it will actually meet your objectives. However, 
giving the Secretary the discretion to be able to use 
arbitration is something that we would like to work with you on 
to be able to use that, and I believe that that may have the 
opportunity to be able to address some of the concerns that 
drives this need for the bonding requirement.
    There's no question we need to do more work. We're on 
record. You quote our numbers about the work that needs to be 
done to be able to restore our forests, but the last thing we 
need to do is create more controversy.
    We have a great track record going. Year after year we 
continue to treat more acres, produce more outputs, and I want 
us to be able to build on that track record.
    With mandating acres, and I definitely can understand the 
interest and the need for doing that, but just a mandate that 
doesn't necessarily mean we're going to get more work. And I'm 
worried that it will create more controversy and opposition 
with those that believe that we're doing it just because we're 
directed through legislation verses being able to do it because 
it's what the land needs.
    With your CE categories, we use a lot of CEs. In fact, the 
majority of our work now is done through categorical exclusions 
(CE). And if we have the right scale with the right level of 
assurances around CEs similar to what you did with the Farm 
bill, the CE in the Farm bill, then we have a good track record 
of being able to work with our collaboratives to be able to get 
work done through those CEs. But it's absolutely essential that 
we find a way to be able to maintain the public trust otherwise 
what I'm concerned about is that we will just create more 
opposition, more conflict and that the use of CEs will either 
slow down the work or we will not be able to implement those 
projects.
    I appreciate the interest here to be able to expand our 
tool set. I think there's some opportunities here where we can 
accomplish that, and we look forward to working with you to be 
able to address our concerns.
    With Senate bill 132, Senator Wyden, the Department 
supports the bill's proposals for the wilderness designation 
and wild and scenic river designations with a few technical 
changes that we propose in our legislation. But I do have 
concerns about the conveyance of the 308,000 acres of land. I 
understand the purpose for that, but I'm concerned that by--as 
I understand the criteria, the lands that would need to be 
identified could be spread all over multiple forests and 
actually create more of this checkerboard situation that we 
have. The other concern that I have is that we made the 
commitment with our communities to manage these lands and their 
multiple use through following through our forest plans, and 
this would shift that. And it's a concern that I have.
    You know that we want to do more work. We want to be able 
to restore this. We want to be able to increase the acres 
treated. We want to be able to increase the amount of timber 
that's being produced to support jobs in these communities, so 
we want to work with you on how to be able to do that in a way 
that also addresses our concerns about this conveyance.
    And then last on Senator Flake's bill on S. 326, we 
appreciate the efforts to be able to give us more flexibility 
with our end result stewardship contracting process. Where we--
our current requirement around cancellation ceilings definitely 
is, it's creating a reluctance in our work force to be able to 
use this because the amount of money that has to be set aside 
for these type of projects. And I really appreciate the work 
around this; however, there are concerns with the impacts it 
would have on some key budget laws, the budgeting processes. So 
I would ask, if it's possible, if we could get our budget 
experts from the Administration to be able to sit down with the 
staff to be able to find a way to be able to address those 
concerns so that we can move forward and have the additional 
flexibility but at the same time, you know, honor the concerns 
they have with our budget processes.
    In closing, just quickly, once again I appreciate the 
efforts here. But I have to stress the largest impediment that 
we have right now from being able to get more work done is 
around the cost of wild land fire suppression. I appreciate the 
support to stop the borrowing, the transfer of funds, but I 
also need to ask you to address the ten-year average situation. 
Senators Wyden and Crapo's bill does that. It slows down the 
growth of the ten-year average. It also provides a significant 
amount of free board in our budget constraint to allow us to be 
more proactive to this.
    But I just need to share with you, just between FY'15 and 
FY'16 our ten-year average has gone up $115 million. Over the 
next few years we have two more low years in that ten-year 
averages that are going to come off. And so over the next few 
years we're going to have to be looking for another couple $100 
million to come out of the rest of our budget. So thank you for 
taking this issue on. That is going to remain our number one 
priority is to be able to address both the ten-year average and 
borrowing.
    Thank you.
    [The prepared statement of Mr. Tidwell follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
    
   
    
    Senator Barrasso. Thank you, Chief Tidwell.
    Mr. Ellis?

  STATEMENT OF STEVEN ELLIS, DEPUTY DIRECTOR FOR OPERATIONS, 
   BUREAU OF LAND MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Ellis. Thank you, Chairman Barrasso, Ranking Member 
Wyden and members of the Subcommittee.
    I'm here to present the Interior Department's testimony on 
Senate bill 132, the Oregon and California Land Grant Act of 
2015, and Senate, S. 326, the Stewardship End Result 
Contracting Improvement Act. And my oral statements here will 
briefly summarize written testimony.
    Senate 132 is a complex bill. It concerns BLM lands in 
Western Oregon, known as the O and C lands. It would establish 
new designations and principles for managing these O and C 
lands.
    The transfer of lands into trust status for the benefit to 
tribes is another part of the legislation, amend the Coquille 
Restoration Act and establish new conservation designations in 
Western Oregon.
    The Department of Interior appreciates the Ranking Member's 
work in developing this legislation. We support many goals of 
the bill, support Title III and would like to work with the 
sponsor and the Committee on some amendments to Title I and II.
    We do have some concerns with the bill as it's currently 
drafted. We are committed to continuing to work with you, the 
sponsors, to address them as we further develop this proposal.
    The 1937 O and C Act that placed 2.2 million checkerboard 
acres of Oregon/California Railroad and Coos Bay Wagon Road 
grants lands under the jurisdiction of the Department of 
Interior. In addition to the O and C lands the BLM manages over 
200,000 acres of public domain forest. We call them our PD 
lands in Western Oregon.
    The BLM's management involves complex and legislative 
frameworks and resource management goals including predictable 
and sustainable yield of timber, endangered species habitat, 
clean water and providing recreational opportunities.
    We are currently revising the 1995 Resource Management 
Plans that govern management of the O and C lands. We have 
actively sought the engagement of stakeholders and the public, 
and we're going to continue to strive for a cooperative 
approach to the complex issues in managing these O and C lands.
    Title I of Senate 132 provides guidance for managing 
forestry and conservation emphasis areas. We do share the goals 
of providing the sustained yield of timber while protecting 
older complex forests in support of conservation for threatened 
and endangered species.
    While we support the many goals in Title I, we have 
concerns with the language and would like to work with you to 
address these.
    Title I also provides for numerous conservation 
designations including the expansion of the Cascade Siskiyou 
National Monument, several wild and scenic rivers and a number 
of new designations. We would like to work with you to clarify 
the management goals and the boundaries of these areas.
    Title II would provide roughly 32,000 acres of BLM-managed 
lands to be held in trust for the benefit of two tribes. The 
BLM welcomes the opportunity to work with Congress on the 
transfer of lands into trust status and supports the goal of 
this Title. We would like to work with you to address these 
various issues including access rights and timber harvest. This 
Title would also amend the Coquille Restoration Act to provide 
for changes in management for the Coquille Forest, and we 
support this modification.
    Title III would establish new wilderness and wild and 
scenic river designations in Oregon. The bill would enlarge the 
Wild Rogue Wilderness and extend the wild and scenic river, the 
Rogue Wild and Scenic River. It would establish the Devil's 
Staircase wilderness, and it would designate the Molalla River 
and Table Rock Fork as part of the wild and scenic river 
system. The Department supports this Title which would conserve 
and protect these special areas.
    S. 326 amends the Healthy Forest Restoration Act of 2003 to 
establish cancellation ceilings to limit up front government 
obligations for stewardship contracting priorities. The 
Department values the flexibility provided by the Stewardship 
Contracting Authority and appreciates Congress' support in 
permanently reauthorizing it; however, we have concerns about 
certain provisions in this bill and would like to work with the 
sponsor and Committee to resolve them while adhering to core 
budget and acquisition principles.
    And thank you. Happy to answer any questions you might 
have.
    [The prepared statement of Mr. Ellis follows:]
    
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
    
    Senator Barrasso. Thank you very much, Mr. Ellis.
    Mr. Matz?

 STATEMENT OF MIKE MATZ, DIRECTOR, U.S. PUBLIC LANDS, THE PEW 
                       CHARITABLE TRUSTS

    Mr. Matz. Mr. Chairman, members of the Subcommittee, it's a 
real privilege to come before you today and offer our 
perspective on two pieces of legislation, S. 132 and S. 1961.
    My name is Mike Matz, and I am Director of U.S. Public 
Lands at the Pew Charitable Trust. For many years now we have 
participated in various roundtable discussions with a variety 
of stakeholders to seek solutions to nettlesome land management 
issues on our national forests. Reaching agreement has proved 
challenging, yet in some cases achievable. Pragmatic solutions 
can be found when people understand they won't get everything 
they would like, but are able to get some of what's important 
to them, as you mentioned, Senator Wyden.
    The path that has culminated in the introduction of S. 132 
has taken a bit of time, almost three years now. We truly 
believe this is a step in the right direction. It protects 
lands and rivers while more than doubling current timber 
production according to some academic experts, and that 
benefits local economies directly by increasing the revenue 
stream to funding strapped counties and indirectly through job 
creation and amenities. The proposal is based on sound science 
thanks to your consultation with Dr. Norm Johnson and Dr. Jerry 
Franklin.
    We greatly appreciate the inclusion of two wild places, 
Wild Rogue and Devil's Staircase which would be designated as 
part of the National Wilderness Preservation system and the 
establishment of four special management units to safeguard 
water resources is likewise vital since watersheds in these O 
and C lands supply drinking water to 1.8 million residents in 
that corner of Oregon. Wild and scenic river designations for 
252 miles of waterways, safeguard clean water also and help 
protect and restore wild salmon habitat. Also worth 
highlighting here is the welcome protection of the ancient 
forests defined as stands with average age trees of at least 90 
years, an increasingly rare forest type.
    I need to mention some of the places not included in S. 132 
which we hope to see added at some point in the process. Mt. 
Hebo, the headwaters of the McKenzie River, the Kalmiopsis and 
North Umpqua River all richly deserve wilderness protection.
    Finally, we should note that we feel we've gone as far as 
we can go on the logging side of the equation to go beyond a 
doubling of timber harvest gets into unchartered science and 
will conceivably damage the health of these natural systems and 
cause harm to sensitive wildlife and plant species. We believe 
logging levels set forth in S. 132 will provide a steady and 
sustainable source of revenue to assist counties struggling to 
provide basic services and will create resource extraction 
jobs. Creating economic opportunities and improving the quality 
of life are important to us just as protecting water quality 
and conserving forests are.
    We've also been asked to provide our perspective on S. 
1691, Mr. Chairman, and it's a real honor to be able to talk 
about your legislation, the National Forest Ecosystem 
Improvement Act of 2015.
    Changes have been made to S. 1691 from the previous 
version, and we would like to express our appreciation to you 
and your staff for listening to some of the concerns enumerated 
by us and others in the conservation community. Gone are the 
forest management emphasis areas, replaced by national 
restoration treatment acreage, for instance, but proscribed 
logging targets are higher and bedrock environmental laws are 
undermined. We oppose S. 1691, and in our written testimony we 
delve into greater detail on the specific provisions which we 
see as problematic still in this version of the legislation.
    Let me take a little time to lay out some of the 
overarching issues with forest management and put forward ideas 
that we have to address them.
    The major one is budgetary. A lack of funding has hamstrung 
the agency, curbed staffing levels and hindered its ability to 
design and implement appropriate timber sales. The Forest 
Service hasn't the funding even to implement more recent legal 
changes such as those in last year's Farm bill.
    Compounding the matter is the fact that the U.S. Forest 
Service in any given Fiscal Year has to divert substantial 
percentages of its budget to the steep costs associated with 
fighting fires which climatic conditions seemingly have 
exacerbated in recent years. Increasing the level of 
appropriations for the agency with transparency and reporting 
while taking the firefighting costs off budget and covering 
those disasters as we do floods or hurricanes, with emergency 
supplemental funding would go a long way toward ameliorating 
current difficulties with forest management.
    The former ideas and simply throwing money at the problem 
because the limitations on the agency are real and being felt 
and the latter is essentially handling catastrophic fires like 
other natural disasters in this country. As a matter of America 
stepping up to assist those fellow citizens among us who need 
help, in this case, to protect lives and property in the wild 
land urban interface.
    I'd like to make two more quick points. The first is that 
we believe in the efficacy and potential of collaboratives 
where there is no preordained outcome, where there exists 
incentives for people from all sides to sit at the table and 
discuss creative solutions to managing and protecting forests. 
And the second is that we do not think that opportunities for 
public participation and recourse should be unduly circumvented 
or short circuited. People can find common ground. And the 
logger in Darrington, Washington should have as much say as a 
conservationist in Boise, Idaho when it comes to decisions 
affecting our public lands.
    Mr. Chairman, thank you very much for the opportunity to 
testify today.
    [The prepared statement of Mr. Matz follows:]
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
    
    
    Senator Barrasso. Thank you, Mr. Matz.
    Mr. Neiman?

    STATEMENT OF JIM NEIMAN, VICE PRESIDENT AND CEO, NEIMAN 
                        ENTERPRISES, INC

    Mr. Neiman. Thank you, Chairman Barrasso and Ranking Member 
Wyden, also recognize Senator Gardner which I have a mill out 
in Colorado.
    Senator, I am Vice President and CEO of Neiman Enterprise. 
We own four sawmills, two in South Dakota, one in Colorado and 
our home state, our home office in Hulett, Wyoming. These mills 
create 475 direct jobs and support another 275 independent 
contract jobs.
    I'm here today on behalf of the Federal Forest Resource 
Coalition, representing purchasers of forest service timber 
from 32 states. I'm here to thank you, Senator Barrasso, for 
introducing Senate bill 1691, the National Forest Ecosystem 
Improvement Act.
    S. 1691 builds on recent congressional actions. These 
include the Healthy Forest Restoration Act, repeal of the 
Peel's Reform Act and the 2014 Farm bill. I hope the Senate 
will move quickly so Federal forestry reform legislation can be 
enacted this year.
    In the intermountain west Forest Service is the primary 
forest land owner and principle supplier of timber. While our 
company purchases most of our timber sales from the Black Hills 
National Forest, we also purchase timber from the seven other 
national forests. Since the late 1990s we've seen catastrophic 
forest fires and insect epidemics devastate the national forest 
where we work and live. A solid body of science, scientific 
research, demonstrates that proactive forest management can 
have a significant influence on fire behavior, the detrimental 
effects of wildfire and bark beetle epidemics.
    The underlying concept is simple, overstocked forests with 
little structural diversity are highly susceptible to fire and 
bugs. Reducing stock in and managing for diversity will reduce 
susceptibility. The Forest Service's 2012 restoration strategy 
acknowledges the need to increase the pace and scale for forest 
restoration, reduce hazards and increase resiliency of the 
national forest. While there has been progress, it has been 
agonizingly slow.
    Unfortunately the Forest Service's environmental analysis 
and decisionmaking process is a procedural maze, made worse 
because of the activist litigation. In 2014 the GAO found that 
the Forest Service prepares more environmental impact 
statements than any other Federal agency and takes longer and 
spends more money in doing so. Once these NEPA documents are 
complete, litigation frequently follows. In the interim the 
beetles continue to spread and wildfires don't wait for 
environmental reviews. Frequently even when the Forest Service 
ultimately prevails the needed management project is rendered 
mute, the watershed is damaged and the opportunity for economic 
use of the timber land is lost.
    S. 1691 addresses many of these issues by providing new 
authorities to complete NEPA and ESA consultation quickly, 
discouraging dilatory litigation and providing new categorical 
exclusions to shorten the planning horizon for needed 
management. We're particularly pleased with the bill, that the 
bill provides for arbitration option to the Chief as an 
alternative dispute resolution mechanism.
    S. 1691 preserves opportunities for public involvement and 
requires documentation of the need for management objectives 
and the proposed categorical exclusions must comply with forest 
plan direction. The Obama Administration and the Forest 
Service, with the Chief to clear down to the crews on the 
ground, deserve praise for their efforts to expand management 
on our national forest. They have worked hard to move needed 
projects forward, but the current processes are an impediment 
to increasing the pace and scale.
    The Federal Government must embrace a vision of efficient, 
proactive management and healthy forests and commit to the 
resources needed to implement the aggressive strategy on the 
ground. By providing new tools and addressing bottlenecks, S. 
1691 sets the ground work for such a strategy.
    Again, I am honored to testify today and look forward to 
working with you to move forestry reform legislation to the 
President's desk.
    Thank you.
    [The prepared statement of Mr. Neiman follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
    Senator Barrasso. Thanks so much, Mr. Neiman.
    Mr. Swanson.

  STATEMENT OF STEVE SWANSON, PRESIDENT & CEO, SWANSON GROUP, 
                              INC.

    Mr. Swanson. Good afternoon, Chairman Barrasso, Ranking 
Member Wyden and members of the Subcommittee. I appreciate the 
opportunity to appear before you today. I am Steve Swanson, 
President and CEO of Swanson Group, a family-owned, forest 
products company in existence since 1951.
    My testimony is primarily focused on the need and our 
continued support for a balanced, effective solution to break 
the paralysis surrounding the management of the statutorily 
unique BLM O and C lands. I know Senator Wyden has dedicated 
significant effort to finding that needed solution.
    I'd also like to underscore the importance of adopting 
legislation to improve the health of our national forests and 
thank Senator Barrasso for his leadership in this effort.
    The Swanson Group currently operates two sawmills, one 
plywood mill and we're rebuilding another plywood mill in the 
Eugene area that was completely lost to fire last summer, 
actually one year ago tomorrow. Our company currently employs 
600 people in some of the economically distressed communities 
in rural Oregon, and with the rebuilt plant we'll increase that 
number to 850.
    My testimony today will focus on the building blocks 
necessary to create an O and C solution that is supportable. 
The items I will focus on include certainty, creating a large 
enough, geographically distributed land base that the agreed 
upon volumes and timber revenues can be produced and protecting 
private lands which today are our industry's sole source of 
dependable wood fiber.
    The cornerstone of any O and C solution is the level of 
certainty provided to meeting the timber harvest, conservation, 
county revenue and other management objectives. Put plainly, if 
a major part of the statutorily unique O and C lands are going 
to be preserved forever by an act of Congress, I don't think 
it's unreasonable to ask that some of the lands be designated 
and unencumbered for the purpose of responsible management to 
create jobs, revenues for rural counties and healthy, diverse 
forest types.
    Current harvest levels are inadequate to meet the timber 
volume needs of the remaining industry infrastructure or forest 
health. The situation is particularly challenging in the drier 
forests of Southwest Oregon where the forests are at higher 
risk to catastrophic wildfires.
    Senator Wyden, as you know from your recent trip to the 
seven wonders of Oregon, Oregon is a large state. Increased 
harvest levels in Salem and Eugene do nothing for the mills in 
Roseburg, Glendale and Medford. An effective O and C solution 
must produce sustainable timber harvest at levels that support 
local infrastructure and forest health up and down the I-5.
    The size of the manageable land base is critical to 
achieving forest health goals and timber outputs. S. 132 
designates only 31 percent of the BLM lands for timber output 
goals and 69 percent to permanent conservation allocations. 
Within the 31 percent dedicated to timber harvest there are 
extensive silvicultural prescriptions and individual tree and 
stand prohibitions that restrict harvest. It is possible to 
take a lighter touch approach to managing but the available 
land base would need to be enlarged.
    Conversely, we can manage a smaller portion of the O and C 
lands more intensively. It is not possible to increase harvest 
levels if we shrink the management land base and mandate 
lighter touch treatments.
    Finally, in our state which is dominated by Federal land, 
well managed private forests are the thread that our mills have 
hung on. I appreciate your efforts to protect private land 
access but there also must be more done on the BLM lands to 
address the risk insects, disease and catastrophic wildfire 
pose to private land. Unfortunately these risks don't respect 
property lines or ownerships.
    Our industry has come to the table and will continue to 
come to the table to find a durable, workable compromise for 
the O and C lands. In fact, the timber industry supported the 
House O and C proposal which dedicated more than half of the O 
and C lands to conservation purposes while dedicating less than 
half to sustained yield timber production with sufficient legal 
certainty.
    Senator Wyden, despite our position on your bill I want to 
assure you that our industry remains totally and completely 
committed to working with you and the rest of the Oregon 
delegation to find an effective compromise O and C solution 
before we see further economic declines in our rural 
communities.
    With regard to S. 1691, this legislation includes important 
provisions to address the primary factors limiting the 
management of our national forests today, namely the litigation 
and cost in time required for the Forest Service to satisfy the 
analysis paralysis that constrains forest managed projects. It 
sets reasonable goals for annual mechanical treatment levels 
and builds upon many existing authorities to streamline project 
planning and implementation for a limited subset of forestry 
projects including those developed by collaboratives. It also 
seeks to rein in the serial litigation that is holding back 
forest restoration efforts.
    I hope this Congress can reach consensus on a reasonable 
package of national forestry forums to restore the health of 
forests and communities.
    Thank you.
    [The prepared statement of Mr. Swanson follows:]
    
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Senator Wyden.Mr. Chairman?
    Senator Barrasso. Yes, Senator Wyden?
    Senator Wyden.Thank you very much. Again with apologies to 
our guests because after this quick comment I am going to make 
the sprint to the plane.
    Mr. Swanson, I very much appreciate the kind of 
constructive tone that you have offered today in your desire to 
get a compromise. Part of the approach on the harvest I want to 
make clear because, as you know, there have been strong 
differences of opinion with respect to the industry and the 
environmental community with respect to how much was devoted to 
harvest, how much was devoted for environmental protection and 
these kinds of issues.
    That is why the number I have used is the number that was 
furnished by the government agencies, the people that we pay to 
give us an objective calculation. What the agencies said is 
that this would double the harvest on a sustainable basis on 
average for the next 50 years. Now I know there continues to be 
disagreement on that between industry people and environmental 
people and the like, so I want the record to show that I 
understand that difference of opinion. I am very anxious to 
continue to work with industry people and environmental people.
    The reason I look to the agencies is I thought at least 
that was a starting off point because those are people that we 
pay, the people in this room and taxpayers all across the 
country, to give us an objective analysis. So a big thanks.
    As you can tell I have enormous admiration for the fact 
that after a fire you said, ``I'm still going to be part of 
rural Oregon. I'm going to come right back and build a larger 
mill.'' We want to see that prosper, and we want to see those 
communities prospering. That is where I am off to, to be in 
Lakeview in not too long now. I look forward to working with 
you.
    Thank you, Mr. Chairman. I appreciate your letting me do 
this. I know you have a tight schedule as well.
    Senator Barrasso. Thank you, Senator Wyden.
    Senator Daines.
    Senator Daines. Thank you, Chairman Barrasso, and thank you 
for your continued leadership in offering a forum designed to 
improve the management of our national forests.
    Chief Tidwell, I want to start by highlighting some recent 
visits to Montana National Forest that I have made in the last 
couple weeks with the local Forest Service as well as county 
leaders. I received a firsthand perspective of how responsible 
harvesting can be used to be a vital tool to improve our 
watersheds. We looked up there at the Chessman Reservoir there 
behind Helena, Montana to reduce the risk of wildfire and to 
respond to beetle kill.
    I want to publicly thank and give thanks to Lolo and 
Helena, Lewis and Clark Forest Supervisors, Tim Garcia and Bill 
Avey. They are doing a wonderful job back in Montana. Their 
staffs, they spent time leading us and in viewing these most 
important projects. Thank you.
    These site visits, I will tell you that it is something 
that reinforced for me that restoring the health of forests 
through active management is absolutely vital to conserving our 
forests and their many benefits for future generations.
    As we all know the situation right now out West is dire. We 
have got a potentially devastating wildfire season on our hands 
at the moment. It is already underway. Millions of acres of 
Montana's national forests are in an unacceptably dangerous 
condition. For these reasons I am determined. I am very 
motivated to pass legislation that gives your agency additional 
tools and authorities to compete and complete more forest 
health restoration projects and do them faster.
    I have a few questions I would like to go through. First of 
all, regarding categorical exclusions which you talked about in 
your testimony, particularly for collaborative developed 
projects and I am one who believes in and stands behind these 
collaborative efforts back in the West and particularly in 
Montana. I know from your testimony that there are 
considerations that should be discussed regarding size and 
scope of CEs. You made that clear. But broadly speaking when 
the Forest Service uses categorical exclusions, including that 
3,000 acre CE that is provided for in the 2014 Farm bill, could 
you describe how your agency takes into account both public 
input and analyzes environmental impacts to ensure that CEs are 
used to enhance rather than hurt the environment?
    Mr. Tidwell. When we have the opportunity to use that, a 
CE, when we have those categories we start by working with our 
local collaboratives. So that there's a sense of what needs to 
be done. There's support for that and we move forward. And a CE 
does not eliminate our requirements to be able to analyze the 
project and to ensure that we're not having unnecessary impact. 
It does reduce the amount of documentation, of written 
documentation. But because CEs are at a scale that's much 
smaller than what we usually do in EA or an EIS so that it does 
take less time to be able to do it.
    But the key, the key part of it, is to have that public 
support so that you can go ahead and use this process where we 
still have public comment. We still address all the 
environmental concerns, but there's less documentation.
    So if it's the right scale and it has the assurances that 
some of the public needs, similar to what we did with the Farm 
bill about roads, etcetera, it's been a very useful tool.
    Senator Daines. I think just to clarify for everybody here 
around CEs, make sure I have this straight, so I am just going 
to go through three quick points to make sure I am doing this 
correctly and you can answer.
    A categorical exclusion cannot be used if there is a 
potential adverse impact on an endangered species or watershed. 
Is that correct?
    Mr. Tidwell. That's correct with our regulations.
    Senator Daines. Right. Likewise a categorical exclusion 
must be consistent with the local forest plan, correct?
    Mr. Tidwell. Correct.
    Senator Daines. And mass clear cuts would not be allowed 
under CEs, correct?
    Mr. Tidwell. Correct. The size of clear cuts regeneration 
harvest, it's governed by the National Forest Management Act 
that limits it to 40 acres in most of the country. And we have 
a few situations on the West Coast where we can use up to an 80 
acre clear cut.
    Senator Daines. Lastly, as I am running out of time, Chief 
Tidwell. If Congress did three things, if they expanded the 
responsible use of categorical exclusions; if they ended fire 
borrowing; and if it reduced the effectiveness of 
obstructionist's litigation which the House has done with their 
recently passed legislation and we are working to do the same 
thing here in the Senate, could you describe how these reforms 
would help increase the pace and the scale of the Forest 
Service projects that improve the health of the forests?
    Mr. Tidwell. I would have to go a little bit further to see 
a change in the amount of work we could get accomplished.
    If by adding additional CEs that maintain the public trust 
that we can continue to be able to use that to get more work 
done. If we eliminate fire borrowing and at the same time 
address the ten-year average situation to provide a consistent 
full level of funds for the agency and if we can find a way to 
address the concerns that drive litigation, we can be able to 
increase the pace and scale of the work that needs to be done. 
We have that track record. We've been doing it, and it's driven 
by the collaborative efforts that you've commented on.
    Senator Daines. Alright, thank you, Chief Tidwell, I 
appreciate it.
    Senator Barrasso. Senator Heinrich?
    Senator Heinrich. Thank you, Mr. Chairman.
    I want to say how much I respect and appreciate the effort 
that you have made to improve this bill from the previous 
Congress' version. I appreciate that watershed health and 
wildlife are now part of the purposes of your legislation, but 
the fact remains that quadrupling commercial timber projects on 
national forests would take resources. It would take money. It 
takes staff. It would take time. As it stands now, the Forest 
Service is short on all three.
    We all have things that we would like to see the Forest 
Service do better, do faster, do more of. In fact Senator Flake 
and I introduced a bill just yesterday to improve watershed 
restoration projects on our national forests. We should hold 
all our public lands' agencies accountable when they do not 
fulfill their missions.
    But the fact is that fire suppression has grown from 16 
percent of the Forest Service budget in 1995 to over 40 percent 
in 2014. We have all heard the testimony of Chief Tidwell on 
what the ten-year rolling averages impacts are going to be in 
the next couple of years. That's simply not sustainable.
    So I'm glad we're having this conversation about forest 
policy, and I absolutely look forward to working with all of 
you as we look for ways to improve the health and the 
resiliency of these Western forests, in particular. But I think 
any solution is going to have to include fixing the fire budget 
so that forest staff can spend time and resources making our 
forests healthier and more accessible to the public instead of 
racing from one catastrophic wildfire to the next.
    I point out, Mr. Chairman, that several of our members and 
witnesses have paraphrased the Mick Jagger principle today. As 
you know that is a very long-recognized public land management 
principle that, accurately articulated, says, ``you can't 
always get what you want, but if you try sometimes, you can get 
what you need.'' I think that is the needle we have to thread 
here in front of us over the rest of this Congress.
    Senator Barrasso. As opposed to, ``I can't get no 
satisfaction?''
    Senator Heinrich. Exactly. Yes. [Laughter.]
    So yes, you just threw my logic out the window there. 
[Laughter.]
    Mick Jagger was all over the place on public land 
management it turns out. [Laughter.]
    That said, Chief Tidwell, S. 1691. As you know it mandates 
substantially higher levels of timber production than we see 
today, about 460,000 acres per year compared to the 100,000 
acres we saw last year. I don't disagree with the goal of 
reasonable timber sale increases, but I want to ask you under 
the current budget pressures, does the service have the human 
and financial resources to process permits for that level of 
production? If you did, what would the impact be on the Forest 
Service's other missions, particularly hazardous fuel reduction 
and wildfire suppression?
    Mr. Tidwell. We currently do not have that level of 
capacity in the agency to do the work. And once again, what we 
accomplish each year is driven by the appropriations that we 
receive each year for the variety of budget line items for 
them. We follow the direction of Congress to do that.
    There's no question we need to continue to increase our 
pace and scale. The tools we have with the Farm bill, the work 
we're doing now to get additional capacity from the states to 
be able to use the Good Neighbor Authority. These are things 
that will continue to be able to build with that. We have a lot 
of places where NEPA is no longer a barrier.
    Senator Heinrich. Right.
    Mr. Tidwell. We have places where we have a lot of NEPA-
ready projects but we lack the personnel to be able to move 
forward getting more projects implemented, be able to set those 
up. We're looking at all of our processes to be able to 
eliminate some of the time consuming work around timber marking 
and using some innovative processes to be able to do that, to 
be able to continue.
    But just the consequence of the fire suppression, the cost 
of wildfire suppression, you know, I too, have lived through 
this, as it's just gradually increased year after year. And to 
the point today when we look at 39 percent fewer employees that 
work in our national forest system, only 49 percent of the 
foresters that we had about 12 years ago. We just lack that 
capacity.
    So it's going to take a combination of new tools, being 
able to implement the new authorities we have. But we need to 
address, you know, the cost of wildfire suppression and do it 
in a way so that we have a consistent level of resources that 
we can be able to rely on. And I worry about where the rest of 
the ten-year average, as it keeps increasing year after year, 
where is that funding going to come from?
    Senator Heinrich. Thank you, Mr. Chair.
    Senator Barrasso. Well, thank you very much, Senator 
Heinrich.
    Chief Tidwell, you have been before this Committee on 
numerous occasions to discuss critical issues facing our 
forests and talk about the great need to get more work done in 
a timely manner, the road blocks to making our forests healthy. 
In response to previous questions you and the agency have 
confirmed several things.
    One, you've confirmed the Forest Service is spending 
northward of $350 million a year on NEPA and other regulatory 
compliance. In 2014 the average environmental impact statement 
took about 37 months, over three years, to complete and the 
average environmental assessment, 19 months. After nearly six 
years of agency efforts to find time and cost savings in NEPA 
it really appears the agency continues to struggle under the 
heavy burden. In a previous hearing you expressed an interest 
in seeing Congress find some solutions to help try to ease that 
burden. I assume that is still your position?
    I am going to ask you about litigation. You have lamented 
in the past that lawsuits that threaten needed forest 
restoration work, particularly those efforts developed by the 
collaboratives. I think at our hearing to examine the Forest 
Service Fiscal 2016 budget you said the litigation definitely 
does impact. You said it is not just the litigation when we get 
a Temporary Restraining Order where we have to stop and wait, 
but every time we get a lawsuit that same staff that would be 
preparing for the next project they have, then they have to 
prepare to go to court. We win a majority of the cases that go 
to court, you said, but even when we win it still has the 
impact because it slows down the development of the next 
project.
    You also highlighted a collaboratively-developed project in 
Cold Summit that was sued and the ensuing delays. I think you 
said we went through the process, yes, and we finally 
implemented the project, but it took another year or so to get 
it done.
    If we continue to see these rogue activist groups block 
these consensus projects, do you believe that collaboratives 
will begin to just fall apart as people become discouraged or 
we lose the last mills in some key areas of the country? I 
mean, it is a concern.
    Mr. Tidwell. From what I'm seeing from our collaboratives 
is that there's a desire to actually do more of it.
    There's no question that there's that level of frustration 
after they've done the heavy work. They've all come together on 
agreement, the agency moves forward, does the adequate 
analysis, makes a decision and then we're sued. It's very, it's 
frustrating at best.
    So we want to continue to work on what is those issues that 
drive the litigation, and your idea of giving the Secretary the 
discretion for arbitration is something we'd like to give that 
a try.
    I've testified before. I have some questions about how it 
would work and would it actually provide better decisions, but 
I think it gives us something to build, to move forward with 
that and try it on a system at the Secretary's discretion that 
I do think that it may get at the issue.
    The concern, with the bonding requirement, I'm not sure 
that that will--it won't stop the litigation. Definitely those 
that have the financial means will be able to do it, and I'm 
concerned that it may actually create more.
    I don't have any data to support this, but it's just--
it'll--I'm worried that it will create more controversy and 
more opposition. Those folks that think we're out there to not 
care for the land and not be able to follow the collaborative 
projects. I'm just worried that they will be able to use it as 
a way to generate more litigation that will be even more 
difficult for us to deal with.
    I'm also concerned that it does cut out the person that 
doesn't have those financial capabilities. Litigation is part 
of our system in this country. I'm as frustrated as anybody 
when we've done the work, we've done the job, we get litigated 
a year later and the judge says, ``Yes, you're okay, go 
ahead.''
    But I do think we need to find a way to work through this. 
I do think your arbitration proposal, and I really appreciate 
the changes you made with the bill this year versus last year, 
but I think that has, you know, some merit that we'd like to 
move forward and work with you to give that a try.
    Senator Barrasso. Thank you, Chief.
    Mr. Neiman, in previous hearings before the Committee Chief 
Tidwell has recognized the forest products industry is an 
essential partner in restoring the health of our nation's 
forests. I know you see your business in that very light.
    How can the Forest Service incentivize and encourage 
investments in mills and can you share with the Committee the 
scope of some of those investments?
    Mr. Neiman. Thank you, Senator.
    You speak to essential partnerships. I had a chance a few 
years ago to set down in Colorado at a conference with Chief 
Tidwell and a number of other Forest Service and industry. When 
you really focus on partnerships instead of this buy/sell 
relationships and you focus on forest health and how do you get 
an efficient, viable forest, we're on the same page. So there's 
a real tone of working on the partnership.
    In answer to your question, industry needs an adequate, 
consistent and predictable supply. Our industry is faced with 
huge investments now. It takes millions and millions of dollars 
of investments. It's sometimes $20, $30, $40, $50 million. In 
the case of a plywood plant you might be $100 million plus. 
It's very expensive.
    Our company last year, just in trying to stay up with times 
and upgrade the Colorado mill, invested $15 million; $3 million 
for an auto grater and $6 million to put in new equipment 
trying to get efficient and eliminate with the bug, with fire 
suppression issues. So there's a big burden. It's very capital 
intensive, but it all comes back. We can do that. It all comes 
back to an adequate supply, and we need a resilient forest.
    If it's dead you're not going to get people to invest. You 
need a resilient forest and you have to have a constant supply, 
Senator.
    Senator Barrasso. So an adequate, consistent and 
predictable supply? Are those the three criteria?
    Mr. Neiman. Yes.
    Senator Barrasso. Okay.
    I have additional questions. Senator Heinrich would like a 
second round, so we can go with you now and then I will follow 
up some more.
    Senator Heinrich. Great, thank you very much, Mr. Chairman.
    I want to take just a moment and mention Senator Flake's 
bill that is on today's agenda as well. I think it is probably 
a good indication that we have not really heard any testimony 
against it.
    The Stewardship End Result Contracting Improvement Act is 
something I am an original co-sponsor on. I think it is an 
important reform. It makes a number of important changes to the 
stewardship contracting process which has been incredibly 
important in New Mexico's forests over the last decade.
    Mr. Neiman, I wanted to ask whether or not you use 
stewardship contracts in your work on national forests?
    Mr. Neiman. Yes, we do.
    Senator Heinrich. Great. Could you talk a little bit about 
why they are an important tool, slightly different, obviously, 
than traditional timber sales, but an important tool in the 
tool box and why we need to make them as easy to administer as 
we can?
    Mr. Neiman. Well, historically and we still do support 
traditional timber sales. I think they're more efficient for 
industry. They're more efficient for the Forest Service. There 
are circumstances where stewardship is important, and we 
support that. But when you get down into the different types of 
stewardship we've seen some that are just a drain on the budget 
for the Forest Service. So it can be inefficient process of 
treating acres, but they both have their place, Senator.
    Senator Heinrich. Well I am going to have to, we may have 
to, agree to disagree on a couple things simply because, at 
least in my home state, we have seen very small, effective 
utilization of commercial timber sales. Part of that is because 
we just do not have a large DBH, straight up and down trees 
anymore, but we have seen really quite effective utilization of 
stewardship contracts.
    I would point to places like the Zuni Mountains where we 
have seen not only the contractors be able to get in and do a 
really incredible job, but it also brought a number of other 
actors to the table who are willing to have some skin in the 
game from the single species advocacy groups like whether it's 
Rocky Mountain Elk Foundation or the Wild Turkey Foundation or 
others who really have seen both the benefits to habitat as 
well. It has made it easier to work through those processes 
which, as we all know, can be challenging.
    Mr. Max or Mr. Matz, I want to switch to you real quick 
because one of my concerns moving back to S. 1691 is the 
provisions that eliminate public notice and participation in 
some of the Forest Service decision-making processes.
    If there is one thing that is a certainty in New Mexico it 
is that my local forest communities want to play a very active 
role in the management of their local national forest. They 
attend meetings. They submit comments. They actually provide an 
enormous amount of critical, local expertise to inform an 
agency in their decisions.
    The CE provisions in this bill are a lot larger than what 
we have seen in terms of their trip wires than current law or 
in the Farm bill, and one of the things I am hearing is that 
there is a concern over the public being able to participate in 
those decisions. Most of our national forest projects right now 
are well under the acreage caps in those CEs. You work with a 
lot of forest communities around the country. What kind of 
reaction do you expect to this effort that would at least move 
some of those decisions behind closed doors?
    Mr. Matz. First, thank you for the question, Senator.
    I think that there would be considerable concern. I think 
that decisions that are made here affecting public lands 
benefit from community involvement, from guidance of decision-
makers and the expertise of scientists. To exclude that kind of 
input in this decision-making process not only doesn't get buy 
in for the decisions, but creates some of the problems that, I 
think, the Chief mentioned too.
    But it tends to limit people's ability and then their 
support for these decisions. So it's problematic to expand it. 
I think that there are particular instances, limited instances, 
where they can be utilized effectively.
    Senator Heinrich. Well I do think that buy in is probably 
the single biggest hedge we have against litigation. There are 
obviously process things we can take on, but when you have 
people who have bought into the outcome it makes it much harder 
to do an end run at the end of the game.
    Thank you again, Mr. Chairman, for holding this hearing.
    Senator Barrasso. Thank you, Senator Heinrich.
    Mr. Neiman, follow up. Would you summarize the benefits of 
S. 1691 for the forest where you operate?
    Mr. Neiman. Thank you, Senator, Chairman, I appreciate it.
    From my end, I've had a number of opportunities to meet 
with my staff and different forest supervisors in the Black 
Hills in South Dakota and Colorado. One of the main common 
threads is that each one, our team and the Forest Service, 
wants to figure out how to treat more acres, particularly those 
acres that are dense stands recognize they're subject to bugs 
and/or fire. I constantly hear there's lack of adequate funding 
and/or personnel to solve those problems or they would be in 
trying to treat more of those acres.
    I want to step to the big picture for a second, if I could. 
The National Forest System is growing 22 billion board feet a 
year, and we're cutting, we're just sneaking back up to three. 
I give the Forest Service credit. They've been growing that 
volume, but we're back to three out of 22.
    We're continuing to add volume to our forest every year. 
We're overstocking our forest. It's getting denser each and 
every year, and 1691 helps give some remedies so we can 
increase that volume and help solve that problem, Senator.
    Senator Barrasso. You talk about the importance of more 
rapid implementation of needed management projects and how 
litigation is one of the ``choke points.'' I think your phrase 
was choke points to timely forest management. Can you talk 
about how litigation has prevented needed projects from going 
forward in your experience?
    Mr. Neiman. Well, if I could, if I could talk about one 
particular example. The cement project near Sundance, Wyoming, 
while the Forest Service was doing further review and there was 
serial litigants that stopped the process and delayed it and 
the timber sale was burned and we lost it.
    The opportunity was there to treat that and we lost it due 
to the fire, and those were centered around wildlife objectives 
for mule deer habitat. They went backward and lost and did not 
accomplish the original goals.
    Senator Barrasso. Okay. Would arbitration be useful to get 
these projects implemented in a more timely fashion? Do you 
think it would have made a difference in this specific case 
related to Sundance?
    Mr. Neiman. If I--I have some concerns about arbitration. 
I'm clearly willing to try it. Clearly it has to be better than 
litigation. Litigation stopped that fire. I can give you other 
examples in Montana where timber was lost to fires due to 
litigation.
    There's two or three examples in the Custer National Forest 
and in Wyoming where, hopefully, arbitration would have sat us 
all down and where sensible people could sit around the table 
and find solutions quicker than litigation that drags out after 
NEPA took three years and then the three years of litigation 
would not help us.
    Senator Barrasso. Just one final question for you. You know 
Wyoming has been hard hit by the Mountain Pine Beetle and 
continues to have to deal with the problem. In your experience 
what was the primary factor leading up to the Mountain Pine 
Beetle outbreak and what were the challenges associated with 
the Forest Service's response to that outbreak?
    Mr. Neiman. Senator, from my end, and I have a lot of 
experience, and the Black Hills is a real good example. 
Overstocking is the issue.
    If people would look back, the Black Hills National Forest 
in 1899 had 1.5 billion board feet of timber; in 1999, a 
hundred years later, 6.2 billion board feet. Now we've lost a 
few hundred thousand. We're back down to 5.5, but that forest, 
the reason the beetles have been on a rampage.
    If you look up the history, the first Roosevelt brought in 
an entomologist. They identified the bug in the Black Hills, so 
the pine beetle is called the Black Hills Pine Beetle before it 
was called the Mountain Pine Beetle. You've got 110 years of 
history and science. Let's use that to help us out, Senator.
    Senator Barrasso. Thank you very much, Mr. Neiman.
    Mr. Ellis, there seems to be a significant debate over the 
level of timber harvest likely under S. 132. The staff from 
your Oregon State office with the assistance of Norm Johnson, a 
university professor, provided one estimate late last year. 
Meanwhile a 31-year veteran, retired analyst from your agency 
doing work for the affected counties authored another analysis 
finding those estimates were unrealistic and predicting volumes 
less than half of those that were provided for by your Oregon 
office. So there are some discrepancies there. What is your 
view of the likely harvest volumes under S. 132, and how 
confident are you that they can be achieved under the 
legislation?
    Mr. Ellis. Mr. Chairman, yeah, the retiree, I understand 
the retiree did come up with some different numbers, but I 
don't know what calculations he used----
    Senator Barrasso. Yes.
    Mr. Ellis. There's various numbers around.
    If you look at our staff in Oregon, they worked with some 
of the staff in trying to come up with some numbers on the 
earlier bill, and those numbers ranged from 310 to 320 million 
board feet.
    Senator Barrasso. Okay.
    Mr. Swanson, I wanted to ask you about these estimates for 
the likely harvest under S. 132. What is your view of the 
likely harvest under the bill and do you have any 
recommendations for how we could get greater clarity because 
it's a pretty important issue here?
    Mr. Swanson. Well the BLM lands grow about 1.2 billion feet 
a year. The legislation would reduce the number of acres by 71 
percent. I'm not a forester, but the math is pretty simple. If 
you reduce the acreage that much and still apply restrictive 
harvest policies, it just doesn't add up and certainly can't be 
sustained.
    Senator Barrasso. Thank you, Mr. Swanson.
    Well, I want to thank all the witnesses for your time and 
your testimony. Some of the members were here and had to leave 
before they were able to ask questions. They may want to submit 
written questions. They are going to have time to do that so we 
will keep the hearing record open for two weeks.
    I want to thank all of you for being here today to 
participate.
    Mr. Neiman?
    Mr. Neiman. Can I add one comment?
    Senator Barrasso. Sure.
    Mr. Neiman. I'd like to clarify or add to your question 
about the overstocked, my answer on the overstocked.
    Part of the public perceives that part of our bug issue is 
tied to climate change. I don't want to debate that issue, I 
just want to accept and get people to think in terms of if we 
do have climate change we could have a lower--a longer growing 
season. We could then have more growth. If you have longer 
growing season and have more drought you should have less 
carrying capacity.
    So my concern is when you combine overstocked forests with 
and overlay that with climate change which is a secondary 
factor to it, we have to really focus on what is the carrying 
capacity of these forests and look at the bigger picture 
instead of microcosm or one animal or one species and look at 
the big picture.
    I would encourage people to look out 75, 100 years and not 
just for our self interest now.
    Thank you, Senator.
    Senator Barrasso. Well thank you.
    I want to thank all the witnesses for your time and 
testimony.
    The hearing is adjourned.
    [Whereupon, at 3:52 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                         [all]
</pre></body></html>
